NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021
DERRICK BAER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

MOTION FOR LEAVE TO FILE IN FORMA PAUPERIS

Petitioner, Derrick Baer, pursuant to the Supreme Court of the United States
Rule 39 and 18 U.S.C. § 3006A(d)(6), asks for leave to file the accompanying Petition
for Writ of Certiorari to the United States Court of Appeal for the Third Circuit
without prepayment of costs and to proceed in forma pauperis.

Petitioner was

represented by counsel appointed under the Criminal Justice Act, 18 U.S.C. §

3006A(b) and (c), in the United States District Court of New Jersey and on appeal to
the United States Court of Appeals for the Third Circuit, and consistent with the
Supreme Court of the United States Rule 39, no Affidavit is required to filed in
support of this motion.
Respectfully submitted,
/s/ Timothy M. Donohue
Timothy M. Donohue, Esq.
Arleo & Donohue, LLC
622 Eagle Rock Avenue
West Orange, NJ 07052
Tel.: (973) 736-8660
E-mail: Tim.Donohue@arleodonohue.com
Attorneys for Petitioner Derrick Baer
Dated: May 14, 2021

NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021
DERRICK BAER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
Timothy M. Donohue, Esq., a member of the Bar of the Third Circuit Court of
Appeals and appointed under the Criminal Justice Act, U.S.C. § 3006A et seq.,
certifies that, pursuant to the Supreme Court of the United States Rule 29.5, he
served the original and ten (10) copies of the within Petition for Writ of Certiorari to
the United States Court of Appeals for the Third Circuit and the original and ten (10)
copies of the within Motion for Leave to Proceed in Forma Pauperis by United States
mail, on the Clerk of the Supreme Court, Supreme Court Building, 1 First Street,
N.E., Washington, D.C. 20543 on the ______ day of May, 2021. At the same time,
copies of same were forwarded by first class mail to:

The Honorable Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Mark E. Coyne, Esq.
Chief, Appeals Division
United States Attorney’s Office
970 Broad Street, Suite 700
Newark, NJ 07102-2535

Patricia S. Dodszuweit, Clerk
United States Court of Appeals
For the Third Circuit
21400 United States Courthouse
601 Market Street
Philadelphia, P.A. 19106-1790

